No. 19-1037
IN THE

Supreme Court of the United States
_________
SOK BUN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I, Ishan K. Bhabha, hereby certify that I am a member of the Bar of this Court,
and that I have this 27th day of May 2020, caused a paper copy of the Reply on Petition
for Certiorari to be delivered to the Court and an electronic version of the document to
be delivered to:
Howard W. Anderson III
176 E Main St.
Pendleton, SC 29670
(864) 643-5790
howard@hwalawfirm.com
Counsel for James Peterson

Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States, et al.

/s/ Ishan K. Bhabha
Ishan K. Bhabha

